HHS/OIG-Audit--"Review of PHS Controls Over Technology Transfers and RoyaltyIncome, (A-01-90-01502)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of PHS Controls Over Technology Transfers and Royalty Income," (A-01-90-01502)
March 4, 1992
Complete
Text of Report is available in PDF format (421 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report found the NIH did not have adequate: (1) accounting of the status of its patent properties; (2) procedures
to ensure that technology, once transferred, was developed, commercialized and receiving its proper share of royalty inocme;
and (3) procedures to ensure timely decisions and coordination for filing of foreign patent rights. The PHS in response
to our report, stated that improvements and innovations have been made which have significantly changed the management
and oversight of the technology transfer program and corrected material internal control weaknesses.